                               Report Template Update = 04-30-05_rev.15




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





CONSECUTIVE MEDICARE STAYS 

  INVOLVING INPATIENT AND 

 SKILLED NURSING FACILITIES





                    Daniel R. Levinson

                     Inspector General 


                       June 2007 

                     OEI-07-05-00340

                                                           Report Template Update = 04-30-05_rev.15




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                                                   Report Template Update = 04-30-05_rev.15




Δ   E X E C U T I V E                                     S U M M A R Y                                                 



                  OBJECTIVES
                  To assess services provided to beneficiaries with consecutive Medicare
                  stays involving inpatient and skilled nursing facilities (SNF) to
                  determine whether:

                              1. 	problems existed with the quality of patient care,
                              2. 	services were fragmented across consecutive stay sequences,
                              3. 	care was medically necessary and appropriate, and
                              4. 	documentation was sufficient to determine appropriateness of
                                  care.


                  BACKGROUND
                  In June 2005, the Office of Inspector General issued a report entitled
                  “Consecutive Medicare Inpatient Stays” (OEI-03-01-00430) which found
                  that Medicare paid an estimated $267 million for sequences of Medicare
                  inpatient stays in fiscal year 2002 that were associated with
                  quality-of-care problems and/or fragmentation of services. This current
                  study is similar to that 2005 study but assesses stay sequences that
                  include at least one SNF stay. For purposes of this review, we defined
                  the term “consecutive stay sequence” as a sequence of three or more
                  individual inpatient and SNF stays for the same Medicare beneficiary
                  for which the admission date for each successive stay occurred within
                  1 day of the discharge date for the preceding stay.

                  Fiscal intermediaries ceased performing routine medical reviews of
                  inpatient hospital services in 1982, when the organizations now known
                  as Quality Improvement Organizations (QIO) were created. These
                  organizations were responsible for routinely reviewing items or services
                  provided to Medicare beneficiaries to determine whether the quality of
                  services met professionally recognized standards of care. However,
                  QIOs do not currently conduct routine case reviews of sequences of
                  services for the purpose of identifying potential quality-of-care concerns.

                  We reviewed calendar year (CY) 2004 Medicare inpatient and SNF
                  services and identified 489,730 consecutive stay sequences. We selected
                  a stratified-cluster sample of 140 consecutive stay sequences. Three
                  internal medicine physicians with geriatric experience reviewed these
                  medical records and determined whether care met professionally
                  recognized standards of care, such as standards relating to quality of
                  care, fragmentation of services, and medically necessary and
                  appropriate admissions, treatments, and discharges. They made these

OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                          i
                                                                                                    Report Template Update = 04-30-05_rev.15




E X E C U T I V E                        S U           M M A R Y


                   determinations both for the consecutive stay sequences and for the
                   individual stays within the sequences.


                   FINDINGS
                   Thirty-five percent of consecutive stay sequences were associated
                   with quality-of-care problems and/or fragmentation of services.
                   Quality-of-care problems were defined in this review as medical errors,
                   accidents, or patient care that did not meet professionally recognized
                   standards which significantly contributed to the need for multiple stays.
                   Fragmentation of services, in this review, was defined as cases for
                   which care provided across consecutive stay sequences may have been
                   necessary and appropriate but should have been consolidated into fewer
                   stays. Medicare paid an estimated $4.5 billion in CY 2004 for
                   consecutive stay sequences associated with quality-of-care problems
                   and/or fragmentation of services.

                   Eleven percent of individual stays within consecutive stay
                   sequences involved problems with quality of care, admissions,
                   treatments, or discharges. Medicare paid an estimated $1.4 billion in
                   CY 2004 for individual stays associated with quality-of-care problems
                   and stays associated with medically unnecessary admission,
                   unnecessary treatment, and inappropriate treatment, care setting, and
                   discharge.

                   Twenty percent of individual stays lacked documentation sufficient for
                   reviewers to determine whether appropriate care was rendered.
                   Reviewers noted that medical documentation that facilities submitted
                   for 20 percent of individual stays was not sufficient to enable reviewers
                   to render a judgment as to whether the admission, treatment, and
                   discharge were appropriate. Medicare paid an estimated $3.1 billion for
                   individual stays associated with insufficient documentation.


                   RECOMMENDATIONS
                   In this report, medical review of consecutive stay sequences revealed
                   instances of problems with quality of patient care and fragmentation of
                   health care services across multiple stays. Physician reviewers’
                   examination of medical records for consecutive stays sequences enabled
                   the reviewers to analyze and identify the broader impacts of
                   quality-of-care problems and fragmentation of services beyond the level
                   of an individual inpatient stay.


 OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                           ii
                                                                                                    Report Template Update = 04-30-05_rev.15




E X E C U T I V E                        S U           M M A R Y


                   We recommended in our June 2005 report “Consecutive Medicare
                   Inpatient Stays” (OEI-03-01-00430) that CMS (1) direct QIOs to monitor
                   the quality of inpatient services provided within sequences of
                   consecutive Medicare inpatient stays, (2) encourage QIOs, as
                   appropriate, to monitor the medical necessity and appropriateness of
                   inpatient services provided within these sequences of consecutive
                   Medicare inpatient stays, and (3) reinforce efforts to educate providers
                   about the appropriate uses of skilled nursing swing beds.

                   The findings from this report are consistent with the quality-of-care
                   problems and fragmentation of care that we found in our June
                   2005 report. Therefore, we recommend that CMS:
                           •	      Direct QIOs to monitor for fragmentation and quality of care across
                                   consecutive stay sequences and the quality of care provided during
                                   the individual stays within those sequences.

                           •	      Encourage both QIOs and fiscal intermediaries, as appropriate, to
                                   monitor the medical necessity and appropriateness of services
                                   provided within these consecutive stay sequences.

                           •	      Collaborate with providers to improve systems of care based on
                                   review results.

                           •	      Reinforce efforts to educate medical providers on their
                                   responsibility for ensuring that medical records provide such
                                   information as may be necessary to determine the quality, medical
                                   necessity, and medical appropriateness of care provided, thus
                                   supporting the Medicare payments due.


                   AGENCY COMMENTS
                   CMS concurred with our recommendations. The agency noted that it
                   will place growing emphasis on continuity-of-care issues in all settings
                   and on measuring the rate of events such as hospital readmissions.
                   CMS is also considering incorporating interventions in the upcoming
                   Ninth Statement of Work for the QIO program. The agency also noted
                   its efforts with the American College of Physicians to increase
                   understanding of the “medical home” concept and the agency is
                   considering folding this concept into the QIO program. CMS will also
                   ask QIOs to categorize complaints by type to provide better data on
                   lapses in care continuity with an emphasis on documentation. CMS’s
                   technical comments were incorporated into the report.



 OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                           iii
                                                                       Report Template Update = 04-30-05_rev.15




Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    Thirty-five percent of consecutive stay sequences were 

                    associated with quality-of-care problems and/or fragmentation 

                    of services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                    Eleven percent of individual stays within consecutive stay 

                    sequences involved problems with quality of care, admissions, 

                    treatments, and discharges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                    Twenty percent of individual stays lacked documentation 

                    sufficient for reviewers to determine whether appropriate care 

                    was rendered . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                    A: 	Estimates and Confidence Intervals for Consecutive Stay 

                        Sequences . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                    B: 	Estimates and Confidence Intervals for Individual 

                        Stays . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


                    C: 	Estimates and Confidence Intervals for Individual 

                        Stays With Inadequate Documentation . . . . . . . . . . . . . . . . . . 21 


                    D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

                                                                                                   Report Template Update = 04-30-05_rev.15




Δ   I N T R O D U C T I O N                                                     



                  OBJECTIVES
                  To assess services provided to beneficiaries with consecutive Medicare
                  stays involving inpatient and skilled nursing facilities (SNF) to
                  determine whether:

                              1. 	problems existed with the quality of patient care,
                              2. 	services were fragmented across consecutive stay sequences,
                              3. 	care was medically necessary and appropriate, and
                              4. 	documentation was sufficient to determine appropriateness of
                                  care.


                  BACKGROUND
                  In June 2005, the Office of Inspector General (OIG) issued a report
                  entitled “Consecutive Medicare Inpatient Stays” (OEI-03-01-00430).
                  Medical reviewers determined that 20 percent of consecutive stay
                  sequences in fiscal year 2002 were associated with (1) quality-of-care
                  problems that significantly contributed to the need for multiple
                  inpatient stays and/or (2) fragmentation of health care services across
                  multiple inpatient stays. In that study, OIG defined consecutive
                  inpatient stays as “three or more individual Medicare inpatient facility
                  stays for the same Medicare beneficiary, where the admission date for
                  each successive stay occur[red] within 1 day of the discharge date for
                  the preceding stay.”1 Further, OIG defined fragmentation in this study
                  as a pattern of unnecessary discharges or transfers across multiple stay
                  sequences when the same levels and types of service could have been
                  consolidated into fewer stays. The prior OIG study sampled from a
                  population of 63,345 sequences, for which Medicare paid approximately
                  $1.9 billion. These sequences specifically excluded skilled nursing
                  facility (SNF) stays. OIG estimated that Medicare paid $267 million for
                  the consecutive stay sequences with quality-of-care problems and/or
                  fragmentation. Additionally, 10 percent of the individual stays that
                  made up the sequences involved problems with the quality of patient
                  care, for which Medicare paid an estimated $171 million.

                  In the current study, OIG examined consecutive stay sequences that
                  included both inpatient stays and SNF stays. The addition of SNF stays


                  1 Inpatient facility stays included acute hospitals, rehabilitative hospitals, psychiatric
                    hospitals, and skilled nursing swing beds.



OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                          1
                                                                                                        Report Template Update = 04-30-05_rev.15




I N T R O D          U C T              I O N


                       increased the number of consecutive stay sequences and dollars
                       associated with these sequences by approximately eight times.
                       Medicare Part A payments for stays in all facility types included in this
                       review totaled $120 billion in calendar year (CY) 2004, the most recent
                       year for which data were available at the start of this study. Nearly
                       $16.7 billion of these payments were for 489,730 consecutive stay
                       sequences, accounting for 1,981,459 individual stays. (See Table 1.)


              Table 1: Medicare Payments for Inpatient and Skilled Nursing Facility Stays,
              CY 2004
                                                                                        Consecutive Stays                                                      All Stays
                                                                                 Number of                          Medicare                  Number of                     Medicare
                                        Type of Facility Stay
                                                                                    Stays                           Payments                     Stays                      Payments
                                          Acute Care Hospital                         935,508             $8,952,499,534                      12,123,844            $93,761,023,094
                                             Rehabilitation Unit                        72,715                $991,306,176                         505,102           $6,569,321,017
                              Skilled Nursing Swing Beds                                43,286                $215,388,291                         134,428             $660,605,134
               Inpatient                          Psychiatric Unit                      31,067                $257,771,449                         515,867           $3,276,644,045
                                           Long Term Hospital                           29,409                $946,601,983                         125,548           $3,588,510,587
                                   Critical Access Hospitals                            29,059                $152,308,409                         288,220           $1,141,454,635
                                                                  Other                      591                  $4,440,495                            6,803              $67,875,555
                   SNF                Skilled Nursing Facility                        839,824             $5,161,047,560                        1,791,607           $11,328,459,442
                                                                Totals             1,981,459             $16,681,363,897                      15,491,419           $120,393,893,509
              Source: OIG analysis of Medicare claims data, 2006.

                       Medicare Payment Systems
                       Medicare Part A provides insurance for inpatient care in acute care and
                       other types of hospitals and in SNFs. All Medicare payment amounts
                       presented in this report reflect payments made from the Medicare
                       Hospital Insurance Trust Fund and do not include any payments from
                       beneficiaries. Medicare beneficiaries are responsible for payment of
                       deductibles and coinsurance. Medicaid or private insurance policies
                       may cover these costs. The following payment systems are in place for
                       the Medicare-covered stays in our population.
                       Acute care hospitals. Section 1886(d)(1)(A) of the Social Security Act (the
                       Act) established a prospective payment system (PPS) for Medicare acute
                       care hospital services effective October 1, 1983. Under this system, the
                       Centers for Medicare & Medicaid Services (CMS) pays hospitals a fixed,
                       predetermined amount for each acute care stay, depending on the
                       payment category code (i.e., diagnosis related group (DRG)) assigned to
                       the stay.



 OEI-07-05-00340       C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                                             2
                                                                                                     Report Template Update = 04-30-05_rev.15




I N T R O D        U C T             I O N


                    Rehabilitation units in acute care hospitals. Section 1886(j) of the Act
                    requires a PPS to reimburse care in inpatient rehabilitation units. This
                    requirement became effective October 1, 2002.
                    Swing beds in acute care hospitals. Section 1888(e) of the Act requires
                    that skilled nursing swing beds be incorporated into the SNF PPS. This
                    requirement became effective July 1, 2002. Swing beds are located in
                    hospitals that have special approval to use these beds, as needed, to
                    provide either acute care or skilled nursing care.
                    Psychiatric hospitals. CMS published its final rule on a per diem PPS for
                    inpatient psychiatric facilities in 69 Federal Register 66922 (2004).
                    This requirement became effective on January 1, 2005.
                    Long term care hospitals. CMS published its final rule on a per discharge
                    PPS approach for long term care hospitals with a DRG-based patient
                    classification system that reflects the differences in patient resources
                    and costs in long term care hospitals in 71 Federal Register
                    27798 (2006). This requirement became effective October 1, 2002, and
                    was fully implemented on October 1, 2006.
                    Critical access hospitals. Critical access hospitals are paid 101 percent of
                    their reasonable costs.
                    Skilled nursing facilities. Section 1888(e) of the Act required a per diem
                    PPS for SNFs. This requirement became effective July 1, 1998.
                    Payment is adjusted for case mix and geographic variation in wages.
                    Conditions of Payment for Beneficiary Services
                    Section 1156(a) of the Act states “[i]t shall be the obligation of any
                    health care practitioner and any other person (including a hospital or
                    other health care facility, organization, or agency) who provides health
                    care services for which payment may be made (in whole or in part)
                    under this Act, to assure, to the extent of his authority that services or
                    items ordered or provided by such practitioner or person to beneficiaries
                    and recipients under this Act—(1) will be provided economically and
                    only when, and to the extent, medically necessary; (2) will be of a
                    quality which meets professionally recognized standards of health care;
                    and (3) will be supported by evidence of medical necessity and quality in
                    such form and fashion and at such time as may reasonably be required
                    by a reviewing peer review organization in the exercise of its duties and
                    responsibilities.”

                    Federal regulation defines professionally recognized standards of health
                    care as “Statewide or national standards of care . . . that professional

 OEI-07-05-00340    C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                            3
                                                                                                     Report Template Update = 04-30-05_rev.15




I N T R O D        U C T             I O N


                    peers . . . recognize as applying to those peers practicing or providing
                    care within a State.”2 For the purposes of this review, standards of care
                    involved such issues as quality of care; fragmentation of services; and
                    medically necessary and appropriate admissions, treatments, and
                    discharges. Additionally, section 1862(a)(1)(A) of the Act limits
                    Medicare coverage to services that are medically necessary. Finally,
                    section 1833(e) of the Act requires that providers furnish “such
                    information as may be necessary in order to determine the amounts
                    due” to receive Medicare payment. Thus, Medicare should pay only for
                    services that meet professionally recognized standards of care, are
                    medically necessary, and are sufficiently documented.
                    Monitoring Responsibilities
                    Fiscal intermediaries. Pursuant to section 1816(a) of the Act and
                    42 CFR § 421.100, CMS contracts with fiscal intermediaries to pay
                    claims for health care services provided to beneficiaries by hospitals and
                    other inpatient facilities and to ensure that the services rendered by
                    these facilities are covered by the program. Fiscal intermediaries are
                    also responsible for ensuring that services are medically necessary and
                    reasonable and are billed and paid appropriately, as required by
                    42 CFR § 421.100 and Chapter 1, section 1.2, of the “Medicare Program
                    Integrity Manual.”
                    Quality Improvement Organizations. Under the authority of the Peer
                    Review Improvement Act of 1982, CMS contracts with groups of
                    licensed physicians in each State to ensure that quality, effective,
                    efficient, and economical hospital care is provided to Medicare
                    beneficiaries. Section 1154(a) of the Act stipulates that Peer Review
                    Organizations, now called Quality Improvement Organizations (QIO),
                    must review health care services rendered by all types of Medicare
                    providers to ensure that the quality of services meets professionally
                    recognized standards of health care. QIOs are also responsible for
                    ensuring that acute care hospital services provided to Medicare
                    beneficiaries are medically necessary and reasonable and are billed
                    correctly.

                    Section 1886(f)(2) of the Act provides specific actions that the Secretary
                    of the Department of Health and Human Services may take when QIOs
                    determine that a PPS hospital takes an action with the intent of


                    2 42 CFR § 1001.2(d).




 OEI-07-05-00340    C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                            4
                                                                                                     Report Template Update = 04-30-05_rev.15




I N T R O D        U C T             I O N


                    circumventing the PPS. Actions circumventing the PPS could include
                    admitting patients unnecessarily, unnecessary multiple admissions of
                    the same individual, or engaging in inappropriate practices designed to
                    circumvent the PPS. Section 4255(C) of the “Quality Improvement
                    Organization Manual” specifies prohibited actions that are considered
                    circumventions of the PPS, including inappropriate discharges,
                    inappropriate transfers, and inappropriate or early readmissions. If a
                    QIO establishes that an acute care hospital has been taking actions
                    with the intent of circumventing the PPS, the QIO may deny
                    admissions, initiate a sanction report and recommendation, or refer the
                    case to OIG for potential termination of its Medicare provider
                    agreement. QIOs are required to conduct specific types of case reviews
                    to fulfill mandatory requirements, including reviews of beneficiary
                    complaints, alleged antidumping violations, and gross and flagrant
                    violations.3 Some of the triggers of case reviews (e.g., beneficiary
                    complaints) require the QIO to review quality of care.

                    QIOs do not currently conduct routine case reviews of sequences of
                    inpatient hospital services for the purpose of either identifying potential
                    quality-of-care concerns or potential circumventions of the PPS.
                    Related Office of Inspector General Work
                    In addition to the 2005 report, OIG has conducted a number of other
                    reviews of consecutive Medicare stays, including studies to determine
                    whether acute care hospitals were engaged in activities to circumvent
                    PPS rules. These reviews have focused on the implementation of
                    Medicare’s post-acute care transfer policy and readmissions to the same
                    acute care hospital on the same day. In a report issued in August 2002,
                    “Review of Medicare Same-Day, Same-Provider Acute Care
                    Readmissions in Pennsylvania During Calendar Year 1998”
                    (A-03-01-00011), OIG examined a sample of medical records and found
                    that 63 of 98 readmissions were billed incorrectly because beneficiaries
                    were, in fact, admitted to nonacute care units within the hospitals or
                    were never actually discharged from the initial admissions.

                    In a February 2000 OIG report, “Analysis of Readmissions Under the
                    Medicare Prospective Payment System for Calendar Years 1996 and
                    1997” (A-14-99-00401), OIG identified a large percentage of cases in
                    which beneficiaries had three or more multiple, continuous


                    3 42 CFR § 1004.1.




 OEI-07-05-00340    C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                            5
                                                                                                     Report Template Update = 04-30-05_rev.15




I N T R O D        U C T             I O N


                    readmissions to the same hospitals. OIG made several
                    recommendations, including that CMS review the claims for these
                    multiple, continuous readmissions.


                    METHODOLOGY
                    The methodology for this evaluation was composed of two parts: (1) an
                    analysis of Medicare claims for all CY 2004 inpatient and SNF services
                    and (2) a medical record review of a sample of inpatient and SNF stays.
                    Analysis of Medicare Claims
                    We accessed CMS’s Medicare Provider Analysis and Review (MedPAR)
                    file to analyze data for all Medicare inpatient and SNF stays in
                    CY 2004, the most recent data available at the time of our review.4
                    We defined Medicare consecutive stay sequences as three or more
                    individual stays including at least one inpatient facility stay (i.e., acute
                    care, rehabilitative, skilled nursing swing bed, psychiatric, long term
                    hospital, critical access hospitals, or other type of inpatient facility) and
                    at least one SNF stay for the same Medicare beneficiary for which the
                    admission date for each successive stay occurred on the same day or
                    within 1 day of the discharge date of the preceding stay. In each
                    consecutive stay sequence, the first stay terminated after
                    January 1, 2004, and the last stay terminated before
                    December 30, 2004. See Figure 1 (next page) for an example of a
                    consecutive stay sequence.




                    4 The MedPAR file is made up of final action records for all Medicare beneficiaries using

                      inpatient facility services. Each record summarizes services provided to a beneficiary
                      during an inpatient facility stay from the time of admission to the time of discharge. The
                      file is created quarterly from CMS’s National Claims History 100 Percent Nearline File.



 OEI-07-05-00340    C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                            6
                                                                                                     Report Template Update = 04-30-05_rev.15




I N T R O D        U C T             I O N


                                Figure 1: Example of One Consecutive Stay Sequence


                                                                                      Hospital Stay



                                                                        Discharged From Hospital
                                                                          and Admitted to SNF
                                                                             (Within 1 Day)



                                                                                          SNF Stay



                                                                          Discharged From SNF
                                                                         and Admitted to Hospital
                                                                              (Within 1 Day)



                                                                                      Hospital Stay



                    Sample Design for Medical Review
                    The sampling frame for this evaluation consisted of sequences of three
                    or more consecutive inpatient and SNF stays for the same beneficiary.

                    Analysis of CY 2004 MedPAR data indicated that Medicare payments
                    for consecutive stay sequences, including both inpatient and SNF stays,
                    ranged from a low of $1 to a high of $1,262,242. Therefore, we stratified
                    the population of 489,730 consecutive stay sequences based on Medicare
                    payment amounts of low (less than $30,000), medium (between
                    $30,000 and $55,999), and high ($56,000 or more). For sampling
                    purposes, each consecutive stay sequence was considered a cluster, or
                    grouping, of individual stays. As shown in Table 2, we selected a
                    stratified-cluster sample of 140 consecutive stay sequences
                    (580 individual stays).




 OEI-07-05-00340    C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                            7
                                                                                                     Report Template Update = 04-30-05_rev.15




I N T R O D        U C T               I O N 




                    Table 2: Sampling Frame Values and Sample Sizes for Medical Review by
                    Strata
                                                                                                                                                                  Number of
                                                                                                             Number of
                                                                           Total Medicare                                  Number of                              Individual
                       Stratum                       Stratum                                               Sequences in
                                                                             Payments in                                 Sequences in                               Stays in
                       Number                       Definition                                                Sampling
                                                                          Sampling Frame                                Sample Review                               Sample
                                                                                                                 Frame
                                                                                                                                                                     Review

                                           Sequences with
                                                 Medicare
                                   1                                         $5,359,801,140                           276,612                               45          159
                                            payments less
                                             than $30,000

                                           Sequences with
                                                Medicare
                                   2        payments from                    $6,262,248,663                           157,338                               50          201
                                               $30,000 to
                                                 $55,999


                                           Sequences with
                                                 Medicare
                                   3                                         $5,059,314,094                             55,780                              45          220
                                              payments of
                                          $56,000 or more

                       Totals                       $16,681,363,897                                                   489,730                               140         580
                    Source: OIG analysis of Medicare claims data, 2006.


                    Data Collection for Medical Review
                    Between March 1 and May 31, 2006, an independent medical review
                    contractor collected medical records from inpatient facilities and SNFs.
                    This contractor’s physicians performed medical reviews of these records
                    from April 1 to August 31, 2006.
                    Medical records. We identified the names and addresses of the facilities
                    that billed Medicare for all stays in each sample consecutive stay
                    sequence. We then prepared a series of letters requesting copies of
                    electronic and paper-based medical records in support of each stay in
                    the sample consecutive stay sequences, and the contractor mailed these
                    medical record requests to inpatient facilities and SNFs. The contractor
                    received medical records for all 140 sampled consecutive stay sequences
                    (579 individual stays), for a 100-percent consecutive stay sequence
                    response rate.5


                    5 The medical record for one individual stay was not received. The Medicare payment for
                      this stay was $0. The physician medical reviewer was able to render conclusions about
                      this sequence without this particular stay. Neither the stay nor the sequence was
                      included in the estimates because of the omission.



 OEI-07-05-00340    C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                                    8
                                                                                                     Report Template Update = 04-30-05_rev.15




I N T R O D        U C T             I O N


                    Medical review. The contractor employed three physicians of internal
                    medicine with geriatric medical experience to review the medical
                    records for the sampled consecutive stay sequences. These reviewers
                    used a medical review instrument that OIG and the contractors jointly
                    developed that was pretested on 10 sample consecutive stay sequences
                    prior to the review of the full sample. The reviewers answered specific
                    questions pertaining to each individual stay in the sampled consecutive
                    stay sequences. Then, to analyze the nature of these stays, the
                    reviewers answered questions about each sequence of stays in its
                    entirety as a single episode of care. The medical review instrument
                    enabled the reviewers to explain their responses in narrative form.
                    Issues for medical review. The reviewers first reviewed the clinical
                    records for each individual stay in the sample of consecutive stay
                    sequences to determine whether:

                            •	      there were problems with the quality of patient care during
                                    the stay (e.g., care that did not meet professionally
                                    recognized standards, medical errors, or accidents);
                            •	      the care setting was medically appropriate;

                            •	      the admission and treatment were medically reasonable and
                                    necessary;

                            •	      the treatment provided during the stay was appropriate to the
                                    type of unit or hospital where it occurred; and

                            •	      the patient was discharged or transferred appropriately.

                    The reviewers then considered each sequence of stays as a whole and
                    used their clinical judgment to determine whether:

                            •	      problems with quality of care significantly contributed to the
                                    need for multiple stays in the sequence,

                            •	      services were fragmented across multiple stays in the
                                    sequence, and

                            •	      an inappropriate discharge significantly contributed to the
                                    need for multiple stays in the sequence.
                    Data Analysis
                    Medical review results. We aggregated the medical review results to
                    identify the proportion of consecutive stay sequences, and individual
                    stays within those sequences, that physicians cited for quality-of-care
                    problems, fragmentation of care, medically inappropriate care setting,


 OEI-07-05-00340    C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                            9
                                                                                                     Report Template Update = 04-30-05_rev.15




I N T R O D        U C T             I O N


                    medically unnecessary admission, medically unnecessary or
                    unreasonable treatment, treatment that was not appropriate to the type
                    of setting where it occurred, or inappropriate discharge. We analyzed
                    the proportion of stays cited for a particular problem by facility type (no
                    results found). We estimated total Medicare payments associated with
                    these consecutive stay sequences and individual stays.

                    We used SUDAAN software to produce weighted estimates of
                    proportions and total payments by error category. These estimates
                    reflect the complex sample design. Point estimates and confidence
                    intervals for all statistics presented in the findings of this report are
                    provided in Appendixes A, B, and C.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-05-00340    C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                            10
                                                                                                         Report Template Update = 04-30-05_rev.15




  F   I N D I N G        S
Δ         F I N D I N G S 


        Thirty-five percent of consecutive stay              The majority of reviewed Medicare
sequences were associated with quality-of-care               consecutive stay sequences were
    problems and/or fragmentation of services                medically reasonable and
                                                             necessary. However, reviewers
                        determined that 35 percent of consecutive stay sequences in
                        CY 2004 were associated with (1) quality-of-care problems that
                        significantly contributed to the need for multiple stays and/or
                        (2) fragmentation of health care services across multiple consecutive
                        stays in a sequence. Quality-of-care problems were defined in this
                        review as medical errors, accidents, or patient care that did not meet
                        professionally recognized standards. Fragmentation of services in this
                        review was defined as a pattern of unnecessary discharges or transfers
                        across multiple stay sequences when the same levels and types of
                        service could have been consolidated into fewer stays. Medicare paid an
                        estimated $4.5 billion in CY 2004 for consecutive stay sequences
                        associated with quality-of-care problems and/or fragmentation of
                        services. This dollar figure represents 27 percent of the total Medicare
                        payments in CY 2004 for consecutive stay sequences involving both
                        inpatient and SNF stays. See Appendix A for point estimates and
                        confidence intervals.
                        Twenty-three percent of consecutive stay sequences were associated with
                        quality-of-care problems that contributed to multiple stays
                        Medicare paid an estimated $2.7 billion for consecutive stay sequences
                        that were associated with quality-of-care problems. Quality-of-care
                        problems that reviewers found included medical errors, accidents,
                        failure to treat patients in a timely manner, inadequate monitoring and
                        treatment of patients, inadequate care planning, and inappropriate
                        discharges.
                        Some examples of quality-of-care problems identified by reviewers
                        include the following:

                                •	      A patient known to have aspiration problems aspirated a thin
                                        liquid that a nursing student accidentally provided to him. The
                                        patient was later transferred to a specialty hospital for
                                        rehabilitation. Several more transfers followed, including moves
                                        to a SNF, an acute care hospital, and finally back to a SNF. Had
                                        the nursing student not made the error in providing the patient
                                        the thin liquid, it is unlikely the patient would have required
                                        multiple stays.



      OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                                11
                                                                                                    Report Template Update = 04-30-05_rev.15




F 	I N D I N G      S


                           •	      A patient suffered a stroke and was admitted to an acute care
                                   hospital. Later, he was discharged to a SNF. The SNF staff
                                   failed to adequately monitor the patient’s blood-thinning
                                   medication. The patient had to be transferred to an emergency
                                   room, where he was found to have gastrointestinal bleeding and
                                   abnormal clotting because of the blood-thinning medication.
                                   Had the SNF staff adequately monitored the patient’s
                                   medication, the complications may have been avoided.

                           •	      A patient was admitted to an acute care hospital and later
                                   transferred to a SNF without adequate monitoring of blood
                                   sugars to ensure stability. The SNF was not alerted that closer
                                   than usual monitoring was advisable. The patient’s low blood
                                   sugar was mismanaged and the patient’s condition was
                                   compounded because a transfer back to the hospital emergency
                                   department was delayed. Had the blood sugar been managed
                                   appropriately during the first stay, one or more stays could have
                                   been avoided.
                   Twenty percent of consecutive stay sequences were associated with
                   fragmentation of services across multiple stays
                   Medicare paid an estimated $2.7 billion for consecutive stay sequences
                   that were associated with fragmentation of care.6 Fragmentation can
                   result from medical mistakes or inappropriate transfers or discharges.

                   Reviewers found fragmentation in many consecutive stay sequences
                   involving both rehabilitation units and SNFs. Typically, patients who
                   were discharged from acute care hospitals to rehabilitation units during
                   a sequence of stays were later discharged directly to SNFs. A reviewer
                   commented that transfers and discharges “. . . can be potentially
                   inappropriate, specifically when dealing with physical and occupational
                   rehabilitation.” Rehabilitation requires a patient who is alert,
                   motivated to work hard, and physically capable of at least 3 hours of
                   rehabilitation every day. The vast majority of patient records reviewed
                   indicated that the patients lacked one or more of these prerequisites.




                   6 Because some sequences were associated with both quality-of-care problems and

                     fragmentation of services, the sum of the dollars paid in each subgroup ($2.7 billion and
                     $2.7 billion = $5.4 billion) exceeds the total ($4.5 billion). See Appendix A for overlapping
                     projections.



 OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                           12
                                                                                                    Report Template Update = 04-30-05_rev.15




F 	I N D I N G      S


                   Thus, the most appropriate transfer from the acute care hospital would
                   have been directly to a SNF.

                   Some examples of fragmentation identified by reviewers include the
                   following:

                           •	      A patient who had suffered a stroke had stays in three separate
                                   facilities—an acute care hospital, a rehabilitation unit, and a
                                   SNF. Both admissions subsequent to the acute care hospital
                                   stay were for rehabilitation. The reviewer noted, “I believe the
                                   same outcome could have been achieved had the patient been
                                   directly transferred to a SNF . . . .”

                           •	      After a stay in an acute care hospital for abdominal surgery
                                   complicated by heart rhythm problems, respiratory failure, and
                                   antibiotic-induced diarrhea, a patient was discharged to a
                                   rehabilitation unit. Because the patient was not making
                                   progress, the patient was later discharged to a SNF. The patient
                                   was later transferred from the SNF back to an acute care
                                   hospital for care. The patient was ultimately transferred back to
                                   the SNF. The reviewer believed care could have been provided
                                   in an outpatient setting rather than being readmitted to the
                                   acute care hospital.

                           •	      A patient was admitted to an acute care hospital for a hip
                                   fracture and dislocated shoulder. The patient was later
                                   transferred to a rehabilitation hospital and later to a SNF for
                                   rehabilitation. The patient was then readmitted to the acute
                                   care hospital because of a failed fracture fixation. The patient
                                   was then again transferred to a SNF for rehabilitation. At the
                                   time of transfer to the first SNF, it was already known that the
                                   hip surgery had failed and plans could have been made for
                                   repeat surgery without additional stays.


      Eleven percent of individual stays within             Medicare paid an estimated
                                                            $1.4 billion in CY 2004 for
consecutive stay sequences involved problems
                                                            individual stays associated with
              with quality-of-care, admissions,
                                                            quality-of-care problems,
                     treatments, or discharges              inappropriate discharges,
                   medically unnecessary treatments, medically unnecessary admissions,
                   inappropriate treatments for the setting, and inappropriate settings.
                   This dollar figure represents 9 percent of total Medicare payments for


 OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                           13
                                                                                                       Report Template Update = 04-30-05_rev.15




F   I N D I N G        S


                      individual stays associated with sequences. See Appendix B for
                      confidence intervals.
                      Eight percent of individual stays were associated with quality-of-care
                      problems
                      Medicare paid an estimated $986 million for individual stays within
                      consecutive stay sequences associated with quality-of-care problems.
                      Quality-of-care problems found included medical staff failing to monitor
                      patients; exhibiting poor clinical knowledge; providing poor discharge
                      instructions; or failing to properly evaluate, diagnose, and treat
                      patients.7
                      Reviewers described specific medical errors that resulted in
                      quality-of-care problems. Examples of these medical errors included
                      drug overdoses, failure to notice worsening symptoms, inadequate
                      monitoring of clotting factors leading to gastrointestinal bleeding,
                      inadequate monitoring of blood sugar, failure to control blood pressure,
                      and electrolyte imbalances.
                      Five percent of individual stays were associated with medically unnecessary
                      admission and treatment, inappropriate treatment and setting of care, and
                      inappropriate discharge
                      Medicare paid an estimated $510 million8 for individual stays
                      associated with problems such as medically unnecessary admission or
                      treatment, treatment that was not appropriate for the setting, and
                      inappropriate discharge.9
                      Reviewers noted several instances of unnecessary admission and
                      treatment, inappropriate treatment, and inappropriate discharge.
                      Examples of these included rehabilitative treatments performed in the
                      acute rehabilitation setting where the SNF setting would have been
                      more appropriate, care the patient needed that was beyond the scope of
                      the facility, care of a custodial nature that could have been provided in a


                      7 The quality-of-care problems that reviewers found in the individual stays often
                        contributed to the need for multiple stays in related sequences; however, there were
                        instances in which quality-of-care problems did not lead to multiple stays. Of the
                        $986 million associated with quality-of-care problems in individual stays, $335 million
                        was associated with individual stays only.
                      8 Relative precision of the estimate exceeds 50 percent.

                      9 Because some stays were associated with both quality-of-care and other issues, the sum of
                        the dollars paid for each subgroup ($986 million + $510 million = $1.5 billion) exceeds the
                        total ($1.4 billion). See Appendix B for overlapping projections.



    OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                              14
                                                                                                    Report Template Update = 04-30-05_rev.15




F 	I N D I N G      S


                   “home setting” rather than in a SNF, a patient whose mental status was
                   such that there was little prospect of benefit from an acute
                   rehabilitation setting, providers’ failures to document plans of care, and
                   discharges that occurred before patients were stable.


  Twenty percent of individual stays lacked             Reviewers noted that medical
  documentation sufficient for reviewers to             documentation that facilities
                                                        submitted for 20 percent of
      determine whether appropriate care
                                                        individual stays was not sufficient
                             was rendered
                                                        to enable reviewers to render a
                   judgment as to whether the admission, treatment, and discharge were
                   appropriate. Medicare paid an estimated $3.1 billion for individual
                   stays associated with insufficient documentation.10 Comments that
                   demonstrate reviewers’ inability to render judgments because of
                   insufficient documentation include the following:

                           •	      It was unclear from the record why the patient could not have
                                   been treated in the nursing home.

                           •	      The reveiwer saw no documentation for the discharge or
                                   readmission. The reviewer also saw no indication of a clinical
                                   status change on the day leading to the readmission.

                           •	      The medical record provided no indication of any acute event or
                                   any transfers. There was no documentation of a hospital
                                   admission between this and the last SNF stay.

                   In 45 percent of individual stays with documentation problems,
                   reviewers were unable to render judgments in more than one area. For
                   example, a reviewer was unable to determine both quality of care and
                   medically necessary treatment for the same individual stay.

                   Reviewers could not determine the following (dollars and percentages
                   are estimates associated with each bulleted item):

                           •	      Quality of care – $1.6 billion or 10 percent of individual stays,11




                   10 Because some stays were associated with both quality-of-care and other issues, the sum

                     of the dollars paid in each subgroup (sum of individually identified documentation
                     problems = $5.0 billion) exceeds the total overall dollar estimate ($3.1 billion).
                     See Appendix C for overlapping projections.
                   11	 Relative precision of the estimate exceeds 50 percent.




 OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                           15
                                                                                                    Report Template Update = 04-30-05_rev.15




F 	I N D I N G      S


                           •	      Appropriateness of Discharge – $1.0 billion or 6 percent of
                                   individual stays,

                           •	      Medically Necessary Treatment – $897 million or 7 percent of
                                   individual stays,12
                           •	      Appropriateness of Treatment Setting – $820 million or
                                   6 percent of individual stays, and

                           •	      Medically Necessary Admissions – $720 million or 5 percent of
                                   individual stays.13




                   12 Relative precision of the estimate exceeds 50 percent.

                   13 Relative precision of the estimate exceeds 50 percent.




 OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                           16
                                                                                                     Report Template Update = 04-30-05_rev.15




F IX NE DC I U N T GI SV E
E                                         S U           M M A R Y
Δ     R E C O M M E N D A T I O N S                                                                          


                    In this report, medical review of consecutive stay sequences revealed
                    instances of problems with quality of patient care and fragmentation of
                    health care services across multiple stays. Physician reviewers’
                    examination of medical records for consecutive stays sequences enabled
                    the reviewers to analyze and identify the broader impacts of
                    quality-of-care problems and fragmentation of services beyond the level
                    of an individual inpatient stay.

                    We recommended in our June 2005 report “Consecutive Medicare
                    Inpatient Stays” (OEI-03-01-00430) that CMS (1) direct QIOs to monitor
                    the quality of inpatient services provided within sequences of
                    consecutive Medicare inpatient stays, (2) encourage QIOs, as
                    appropriate, to monitor the medical necessity and appropriateness of
                    inpatient services provided within these sequences of consecutive
                    Medicare inpatient stays, and (3) reinforce efforts to educate providers
                    about the appropriate uses of skilled nursing swing beds.

                    The findings from this report are consistent with the quality-of-care
                    problems and fragmentation of care that we found in our June 2005
                    report. Therefore, we recommend that CMS:
                            •	      Direct QIOs to monitor for fragmentation and quality of care across
                                    consecutive stay sequences and the quality of care provided during
                                    the individual stays within those sequences.

                            •	      Encourage both QIOs and fiscal intermediaries, as appropriate, to
                                    monitor the medical necessity and appropriateness of services
                                    provided within these consecutive stay sequences.

                            •	      Collaborate with providers to improve systems of care based on
                                    review results.

                            •	      Reinforce efforts to educate medical providers on their
                                    responsibility for ensuring that medical records provide such
                                    information as may be necessary to determine the quality, medical
                                    necessity, and medical appropriateness of care provided, thus
                                    supporting the Medicare payments due.


                    AGENCY COMMENTS
                    CMS concurred with our recommendations. The agency noted that it
                    will place growing emphasis on continuity-of-care issues in all settings
                    and on measuring the rate of events such as hospital readmissions.
                    CMS is also considering incorporating interventions in the upcoming
                    Ninth Statement of Work for the QIO program. The agency also noted

  OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                            17
                                                                                                       Report Template Update = 04-30-05_rev.15




R   E C O        M M E N D A T                          I O N               S


                      its efforts with the American College of Physicians to increase
                      understanding of the “medical home” concept and the agency is
                      considering folding this concept into the QIO program. CMS will also
                      ask QIOs to categorize complaints by type to provide better data on
                      lapses in care continuity with an emphasis on documentation. CMS’s
                      technical comments were incorporated into the report. The full text of
                      CMS comments can be found in Appendix D.




    OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                              18
                                                                                                                               Report Template Update = 04-30-05_rev.15




                   I NE TC RO OM DM UE CN T D I AO T N I O N
                   R                                                                                S
                Δ          A P P E N D I X                                     A

                                                      Estimates and Confidence Intervals for Consecutive Stay Sequences



Sequence Counts, Point Estimates, and Confidence Intervals for Consecutive Stay Sequences (n=140 Sequences)

                                                           Estimate Description                                      Point Estimate                              95-Percent Confidence Interval


 Medicare payments for sequences associated with quality-of-care problems                                               $2,688,654,896                                  $1,687,361,526 - $3,689,948,265


 Percentage of sequences associated with quality-of-care problems                                                                       22.6%                                            14.2% - 31.0%




 Medicare payments for sequences associated with fragmentation of services                                              $2,709,903,725                                  $1,655,689,690 - $3,764,117,761


 Percentage of sequences associated with fragmentation of services                                                                      19.6%                                            11.7% - 27.5%



                                          Total Gross Overlapping Payments                                              $5,398,558,621

                                               Total Gross Overlapping Rates                                                            42.2%

                                                                    (Payment Overlap)                                   ($872,077,767)

                                                                  (Sequence Overlap)                                                   (7.2%)


 Medicare payments for sequences associated with quality-of-care problems
 and/or fragmentation of services                                                                                       $4,526,480,859                                   $3,299,063,111- $5,753,898,598


 Percentage of sequences associated with quality-of-care problems and/or
 fragmentation of services                                                                                                              35.0%                                            25.6% - 44.4%

 Percentage of Medicare payments for sequences associated with quality-of-care
 problems and/or fragmentation of services                                                                                              27.4%                                            20.0% - 34.9%




                      OEI-07-05-00340         C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                                                          19
                                                                                                                           Report Template Update = 04-30-05_rev.15




           Δ          A P P E N D I X                                      B

                        Estimates and Confidence Intervals for Individual Stays



Stay Counts, Point Estimates, and Confidence Intervals (n=579 Individual Stays)

                                                   Estimate Description                                 Point Estimate                          95-Percent Confidence Interval

 Medicare payments for stays associated with quality-of-care problems                                          $986,477,670                               $513,855,548 - $1,459,099,811


 Percentage of stays associated with quality-of-care problems                                                                7.5%                                                 4.1% - 10.9%



 Medicare payments for stays associated with inappropriate discharges,
 medically unnecessary treatments, medically unnecessary admissions,
 inappropriate treatments for the setting, and inappropriate settings                                          $510,250,017                                  $184,846,299 - $835,653,735


 Percentage of stays associated with inappropriate discharges, medically
 unnecessary treatments, medically unnecessary admissions,                                                                   4.8%                                                  2.1% - 7.6%
 inappropriate treatments for the setting, and inappropriate settings



                                    Total Gross Overlapping Payments                                        $1,496,727,687

                                        Total Gross Overlapping Rates                                                      12.3%

                                                            (Payment Overlap)                                 ($80,965,640)

                                                          (Sequence Overlap)                                               (1.2%)


 Medicare payments for stays associated with quality-of-care problems,
 inappropriate discharges, medically unnecessary treatments, medically
 unnecessary admissions, inappropriate treatments for the setting, and                                      $1,415,762,047                                $852,393,116 - $1,979,130,977
 inappropriate settings


 Percentage of stays associated with quality-of-care problems,
 inappropriate discharges, medically unnecessary treatments, medically                                                     11.1%                                                  7.0% - 15.2%
 unnecessary admissions, inappropriate treatments for the setting, and
 inappropriate settings

 Percentage of Medicare payments for stays associated with quality-of                                                        8.6%                                                 5.1% -12.0%
 care problems, inappropriate discharges, medically unnecessary
 treatments, medically unnecessary admissions, inappropriate treatments
 for the setting, and inappropriate settings




                  OEI-07-05-00340         C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                                                        20
                                                                                                                            Report Template Update = 04-30-05_rev.15




            Δ          A P P E N D I X                                      C

                         Estimates and Confidence Intervals for Individual Stays With Inadequate Documentation


Stay Counts, Point Estimates, and Confidence Intervals (n=579 Individual Stays)

                                                            Estimate Description                             Point Estimate                      95-Percent Confidence Interval

 Medicare payments associated with stays for which quality of care could not                                    $1,565,752,796                          $1,017,283,102 - $2,114,222,490
 be determined
                                                                                                                                                                                    6.7% - 13.2%
 Percentage of stays for which quality care could not be determined                                                           10.0%


 Medicare payments associated with stays for which appropriateness of
 discharge could not be determined                                                                              $1,000,347,511                             $511,142,511 - $1,489,552,511

 Percentage of stays for which appropriateness of discharge could not be
 determined                                                                                                                       6.3%                                               3.7% - 8.9%


 Medicare payments associated with stays for which medically necessary
 treatment could not be determined                                                                                 $896,734,826                            $394,294,530 - $1,399,175,122

 Percentage of stays for which medically necessary treatment could not be
 determined                                                                                                                       6.9%                                              3.3% - 10.5%


 Medicare payments associated with stays for which medical appropriateness
 of setting could not be determined                                                                                $820,031,234                            $432,682,287 - $1,207,380,181

 Percentage of stays for which medical appropriateness of setting could not be
 determined                                                                                                                       6.0%                                               3.1% - 8.8%


 Medicare payments associated with stays for which medically necessary
 admissions could not be determined                                                                                $719,852,375                            $359,083,147 - $1,080,621,604

 Percentage of stays for which medically necessary admissions could not be
 determined                                                                                                                       5.2%                                               2.6% - 7.7%


                                         Total Gross Overlapping Payments                                       $5,002,718,752

                                                Total Gross Overlapping Rates                                                 34.4%

                                                                     (Payment Overlap)                        ($1,874,844,887)

                                                                   (Sequence Overlap)                                        (14.3%)


 Medicare payments associated with stays for which quality of care,
 appropriate discharges, medically necessary treatments, medically necessary
 admissions, appropriateness of treatments at the setting, and appropriate                                      $3,127,873,855                          $2,292,587,972 - $3,963,159,737
 settings could not be determined

 Percentage of stays for which quality of care, appropriate discharges,
 medically necessary treatments, medically necessary admissions,                                                              20.1%                                                 14.7 - 25.5%
 appropriateness of treatments at the setting, and appropriate settings could
 not be determined


 Percentage of stays for which reviewers were unable to render a judgment in                                                  44.9%                                                33.1% - 56.8%
 more than one area


                  OEI-07-05-00340          C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                                                          21
..     APPENDIX
        Agency Comments
                                                            D




  (. ø ~ OEP-T OFHEAm &_ 5IèE
   ,~'r                                                        lIAY 11 20
                                                                                                                  èenle lOr' MedlC& Med SeIV

                                                                                                                  ilinlstriitar
                                                                                                                  WafngOC201



           TO: Danel R. Levin
                              Inper Geera

           FROM:


           SUB: Offce                 of Inpetor Geeraòs Dra                 Reprt:         "Consecutive MedCà Stays
                              Iivolvig Inpatentand Skiled Nurg                        Faclities"       (OEI-07-OS,.340)
          Th you.forthe opportity to.          review an conuent on the Ofce of   Inpector     Generl's
          (OIG) dr reprt "Consutive            Medcae StaY$ Iivolvj Inpatent afdSkilledNuring
          Facilities" (OEI-07-0S-00340). We       apprciate the OIG'seffort to e~thattheCeters for
          Medcar     & Medcad Servces (CMS) is respndigappríy to                quaity     of car'afd
          frgmentation of serice prblems lea4ng to Cpiiu,ve Medica stys.
          The CMS is commtted to ensung thati~ beeficiaiesrecve h1gh quaitycaandmwnta
          both    the Quity Imrovement Organizon (QIO) progr~dthSareyandCeI'caon
          progr to
                          ca out ths commtment The OIG'sinpeon ispaculyfuelybeeaus we
          ar     curntly exai trsitions of                  cae and developing sttegìestöre~ tnetate of
          rehospitaon. We are                also   conductg the      ContiUity          Asen             Review and EVàuation
          (CAR) demonstion, which                   is inteed to nïetrsitioïiSàer for patients.
          om Recommendations

                 · Dir QIOs to monior forftagmentaon and quaty ofc¡ across consecutive.
                                                                                                                              sty
                     seuences and     the quaty       of cae    provided dur the                   individua stys within those
                     setùence.
                 · Encourge both QIOs and fi intermares, as
                                                                                          approprite, to monitotth meca
                     necty and appropriatenes of               servce provided with these                   consecutive sty
                     sequences.
                 · Collarate with providers to imrove                systems of ca bas on                   review reults.
                 · Reiorc effort to educate medca provictersori their reporiibil.ty foterurg th
                     medcal reords provide such informon as may be                           nec todetine the quaity,
                     medical necessity, an medca appropriatnesofCà.

          CMS Response

          We ag with.the remmendation that QIOs pay
                                                                            greater attention to quaity problems
          asociated with consecutive stys.' We plan                to put grwi emphais on contimiity of ca is




 OEI-07-05.00340             CONSECUTIVE MEDICARE STAYS INVOLVING INPATIENT AND SKILLED NURSING FACILITIES
                                                                                                                                               22
A P PEN D                     x          D




            fage 2 :- Danel R Levi

            in all
                 settgs and OD, Ing:tberateöfevelr su ashospita1ressons. Infìct we ar
            CoIiiderig InCorprå Ineptionsto addres thispIhleiIn theupmig9i1 Ståtement of
            Work förthe QIÖ PrOŠf

            We   plac gteiiìsÖÌlworkgwitbprvid~to i1prove ca,whereproblei ate
            ideedand1hsreviewreiiorcetlømpluiS Forexple,we have worke witlithe
            AienC8cPllegeof l'hysiciato leamore ahOlit its "ieitahomi:" t(nct, Inwlchca

            is cordte fOlapati"tÌittfUg aSìe site. We havecoideredfoiding such concts Il

            di€: QIO prgr becus€:'we:hfIïeveths coneetcouldlead to greatecontiuityofcafor

            beeficiäes
            Finy, we 8gi          tl   the próblem of ckenon is
                                                                            imrtt. We beieve th our new

            emphas     on   communcaona.ss caseings'forpaei wicol1veepiS(de of ßa
           wilIcontibut to impi;ving tbprblei In addon, theCMSsUey proces enforc 

                                                                                                hospita
           coiiitioIiof piuèion, whchre. bnth 

                                                                  th    asent ofil nC( for dise plil
           and   th prviil)nofplangtQJhose withn~ Wear
                                                                            as QIOstocagonzcomplants

           by ty,whch.wilgiVe tI beeulii on laes                       in ca co1Uty and how we ca imroVi from

          . abeefcíii pe.
           Conclusion

           We    appreat thQIG's effol1 in cond,qcits:invegaonofconscutvestysfor.MedCae
           beeñciares and ex toni sign pr0Bls onprblemidentied





 OEI-07-05.00340            CONSECUTIVE MEDICARE STAYS INVOLVING INPATIENT AND SKILLED NURSING FACILITES
                                                                                                                 23
                                                                                                       Report Template Update = 04-30-05_rev.15




A   P   P E N D       I X            ~            B
Δ       A C K N O W L E D G M E N T S

                      This report was prepared under the direction of Brian T. Pattison,
                      Regional Inspector General for Evaluation and Inspections in the
                      Kansas City regional office, and Gina C. Maree, Deputy Regional
                      Inspector General.

                      Brian Whitley served as the team leader for this study. Other principal
                      Office of Evaluation and Inspections staff from the Kansas City regional
                      office who contributed to the report include Linda Paddock and Zula
                      Crutchfield; central office staff who contributed include Doris Jackson
                      and Kevin Farber.




    OEI-07-05-00340   C O N S E C U T I V E M E D I C A R E S TAY S I N V O LV I N G I N PAT I E N T   AND   S K I L L E D N U R S I N G FA C I L I T I E S
                                                                                                                                                              24
